-       O           n



panel review member fo; th

a
0f
                            CLOSEOUT FOR M92090038


                                   , OIG was informed by three program officers, Drs.

officers are members of the Division of
Directorate f         o
                                                  of an allegation of plagiarism. The program



                 is a faculty member in the Department of

           entitled, "
                                                                                         in the
                               r The program officers had been informed of the allegation by a
                                                                   mprogram. The panelist, Dr.

                        University. The panelist alleged that text and figures in proposall)

             from a paper
                       - - published
                             -
                                                                                   ' had been
                                       by other scientists. The proposal was submitted by Dr.
                                                                                             b

                a scientist employed by tt




       OIG compared the paper with the proposal and found that the proposal contained a
large amount of text, three equations, and four figures that appeared substantially similar or
identical to materials in the paper. The copied material was not offset from the remainder of
the proposal text and none of it was accompanied by a citation to the source document. We
sought the opinion of another program officerni-                       the same NSF Division
who had no connection with the proposal. The program officer also noted that the proposal
did not cite the paper as a reference, and said the "background description, the technical
motivation, potential advantages of the MESFET technology, and the rationale for the
proposal are all basically the same as discussed in the paper, and are presented in essentially
the same order with very similar, and in many instances, nearly identical wording."

        During OIG's review of the material for this case, and for cases M-92090040 and M-
92 100042, all which concerned allegations against the Firm's employees, OIG uncovered
sufficient evidence to conduct an on-site fraud investigation against the Firm. This
investigation resulted in a Department of Justice settlement of the U.S. Government's fraud
suit against the Firm. Part of the civil settlement was the Government's conclusion that the
plagiarism in this case was ultimately the responsibility of the Firm's owners and officers and
was a serious deviation from accepted practices under NSF's misconduct in science
regulation. On the basis of the Government's settlement we closed this case and will take no
further action. The press release describing the Justice Department's case against the Firm is
attached.


cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG


                                     Page 1 of 1
                                                                           NORA M. MANELLA
                           NEWS                                               U n i t e d Stares A t r o r n c y
                          RELEASE                                          Central D i s t r i c t of California

                     For I r n r n c d i a r c Distribution


          COMACT                -
        Carol. Levihky, Public AH&    Omca (213) W W 7
                                                                                          March 25, 1996

                                                                                          AUSA ~ o n Dea
                                                                                                     g
                                                                                          (213) 894-2450



                            SCIENTIFIC FRAUD CASE SETTLED FOR $2MILLION

                  A scientific research company,. Electro-Optek Corporation, of Torrance, Ca.,

settled a civil fraud suit today filed by t h e U.S. Government alleging that t h e
4.   'L
     , ,-.   -.
&mpany had made false statements in scientific research proposals and had

submitted false billings ro the Government in connection with scientific research

grants, As p a n o f rhe settlement agreement, t h e c o m p a n y ' s o w n e r s a n d officers,

William S. Chan a n d Felicia Chan, o f San- P e d r o and M i c h a ~ Lee,
                                                                       !    of Torrance, will

pay           rhe government approximate^^ $530,000 in cash and will lose a l m o s t $1.5

million in grants t h a t had been previously awarded t o them, announced United

Stares Attorney Nora M. Manella. The defendants also agreed not t o apply for any

future federal funding for three years.

                  The Electro-Optek defendants were charged with .rraud against the

 ~ o v e r n m e n r ' sSmall Business Innovation Research (SBIR) p r o g r a m . The S B I R

 program grants money t o deserving small companies for scientific research in o r d e r

 to promore small business, encourage scienrific innovarion, and assisr with t h e

commercialization o f scientific discoveries. The granrs are m a d e t h r o u g h 7 1

 different federal agencies s u c h                  a s the National Science Foundation, t h e National

 Aeronautics and Space Administration, and the Deparrmenr o f D e f e n s e . The
                                          US ATTORNEY LA
                                            P A 0 US ATIT!




defendants were accused of knowlngly and repeafedly applying for and receiving

SBlR granrs from the agencies for research t h a t had already been completed under

granrs awarded to orher agencies. Defendants were also accused of charging the

Government. for the costs of engineering labor by Felicia Chan and Michael Lee

when, in fact, they did not perform engineering work.

       The Goveriimenr also uncovered evidence that in rheir SBlR p r o p o s a l s , he

d e f e n d a n t s had plagiarized from a scientific publication and misrepresented the

academic qualifications of one of their researchers. The Government concluded

that the practices of the company and its owners seriously de>.#iated
                                                                    from accepted

practices in science or engineering, which constitutes misconduct in science under

the National Science Foundation's regulations.

       The Government had filed its complainr against the Elecrro-Optek defendants

alleging over $1.4 mlllion in damages in 1994, According to Assistant Unired

States Anorney Hong Dea, who handled the case, in one of the first actions of irs

kind in rhe nation under the Federal Debt Collecdon Procedures Acr of 1990, he

Government had obtained court orders putting liens on defendanrs' real estare a n d

freezing their bank accounts so ~ h a money
                                      r     could not be withdrawn priar to rrial.

       This case resulted from an investigation led by rhe O f f ~ c eof lnspecror

General for the National Science Foundation, and was assisted by rhe Inspector

General's Office for NASA, the Criminal Investigative Service of the Department o f

Defense, a n d t h e U n ~ r e dSrares Marshals Service.
